BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing BriefAmicus
Curiae of Citizens United and Citizens United
Foundation in Support of Petitioners in 19-251 and 19255, Americans for Prosperity Foundation v. Xavier
Becerra, Attorney General of California, and Thomas
More Law Center v. Xavier Becerra, Attorney General
of California, were sent via Next Day Service to the
U.S. Supreme Court, Next Day and e-mail service to
the following parties listed below, this 1st day of
March, 2021:
John J. Bursch
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Counsel for Thomas More Law Center
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 1 Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com

Counsel for Americans for Prosperity Foundation

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Aimee Athena Feinberg
California Department of Justice
1300 1 Street
Sacramento, CA 95814
(915) 210-6003
Aimee.Feinberg@doj.ca. gov

Counsel for Xavier Becerra, in his official capacity as
the Attorney General of California
Jeremiah L. Morgan
Counsel of Record
William J. Olson
Robert J. Olson
William J. Olson, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 1, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

D a t e ~~

ifVk< ~' -

Notary Public

-

[seal]

JOHN D. GALLAGHER
Notary Publlc, State of Ohio
My Commission Expires
Febnnry 14, 2023

•

